Audit of USAID/South Africa’s Selected Financial Data
during Fiscal Year 2003

Audit Report No. 4-674-04-001-F
February 24, 2004




            PRETORIA, SOUTH AFRICA
February 24, 2004


MEMORANDUM
FOR:           USAID/South Africa Mission Director, Dirk W. Dijkerman

FROM:          Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:       Audit of USAID/South Africa’s Selected Financial Data during
               Fiscal Year 2003 (Report No. 4-674-04-001-F)

This memorandum is our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II in this report.

This report includes one recommendation. In response to the draft report,
USAID/South Africa concurred with and took corrective final action with regard
to the recommendation. Therefore, we consider that both a management decision
and final action have been achieved upon issuance of this report. No further action
is required with regard to the recommendation.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                      1
(This page intentionally left blank.)




                                        2
Table of   Summary of Results ........................................................................................... 5
Contents
           Background......................................................................................................... 5

           Audit Objective .................................................................................................. 5

           Audit Findings .................................................................................................... 6

                      Were selected financial data for USAID/South Africa recorded
                      correctly and in compliance with USAID policy for fiscal year
                      2003?...................................................................................................... 6

                                 Additional Office Building Costs Need to Be Reported as
                                 Property Plant & Equipment ...................................................... 6

           Management Comments and Our Evaluation..................................................... 7

           Appendix I - Scope and Methodology................................................................ 9

           Appendix II - Management Comments………………………….……………11




                                                                                                                                      3
(This page intentionally left blank.)




                                        4
Summary of   This audit report discusses the results of testing of selected USAID/South
Results      Africa’s (Mission) recorded financial data during fiscal year 2003. The
             objective of the audit was to determine whether selected financial data were
             recorded accurately and in accordance with USAID policy. (See page 5.)

             The Mission’s Office of Financial Management made improvements to the
             processes and quality of financial data as compared to an internal control review
             conducted by RIG/Pretoria earlier in the year. (See page 6.) Based on evidence
             obtained by performing audit procedures at the Mission, selected financial data
             were found to be correct except for building costs reported under the category of
             Property Plant & Equipment. (See page 6.)

             Management comments are included in their entirety in Appendix II. (See page
             11.)



Background   The U.S. Agency for International Development (USAID) is a decentralized
             organization with 38 overseas accounting stations located at various missions
             around the world. Financial and accounting data for USAID’s overseas
             missions are accumulated and reported to USAID/Washington through the
             Mission Accounting and Control System (MACS). However, there is some
             financial information that overseas missions are required to report to
             USAID/Washington that the missions are not able to produce in MACS. Such
             information is reported separately from MACS through periodic data calls.

             This audit covered selected program and operational transactions recorded by
             USAID/South Africa during fiscal year 2003. The objective of the audit was to
             determine whether the Mission’s recording of those expended and accrued
             transactions was accurate and in accordance with USAID policy.




Audit        RIG/Pretoria conducted testing of selected financial data of USAID/South
             Africa recorded during fiscal year 2003 to answer the following question.
Objective
                    Were selected financial data recorded at USAID/South Africa during
                    fiscal year 2003 correct and in accordance with USAID policy?

             Appendix I contains a discussion of the audit scope and methodology.




                                                                                                 5
Audit      Were selected financial data recorded at USAID/South Africa during fiscal
Findings   year 2003 correct and in accordance with USAID policy?

           Selected financial data recorded at USAID/South Africa were correct and in
           accordance with USAID policy, except for building costs reported to
           USAID/Washington under the category of Property Plant & Equipment.

           The Mission made several improvements in the processing and reporting of
           financial data when compared to the internal control review conducted earlier in
           the year by RIG/Pretoria. The improvements were:

             ¾ Requested documentation for testing was made available in a more timely
               manner.
             ¾ Outstanding project advances decreased by 39 percent.
             ¾ The offset of project accruals and advances was more accurately reported.
             ¾ Project accruals were better supported and were more accurately
               calculated and reported.

           However, the Mission needed to improve its reporting in the area of Property
           Plant & Equipment. This area is discussed in more detail below.


           Additional Office Building Costs
           Need to Be Reported as
           Property Plant & Equipment

           Per USAID guidance, all material elements of construction costs are to be
           included in the cost basis of U.S. Government facilities. The Mission had not
           included costs for an upgraded security system and other modifications in the
           cost basis of its new office building as reported to USAID/Washington in data
           call information for the third quarter of fiscal year 2003. The additional costs
           had not been included due to an oversight on the part of the Mission’s Office of
           Financial Management. As a result, the total value of Property Plant &
           Equipment reported as of June 30, 2003 was understated by about $1.2 million.

           USAID Handbook 19, Chapter 15, states that accounts for the cost of facilities
           constructed by or for the Government should include all material elements of
           cost including those for, “Fixed and severable collateral equipment and its
           installation needed to complete the facility for its intended use.”

           The primary component of the cost category Property Plant & Equipment at
           USAID/South Africa was the cost of the new office building which was
           completed and occupied in October 2002. The cost basis for the new building
           was last updated in January 2003 as $3,883,885, and that was the amount the


                                                                                         6
             Mission reported to USAID/Washington in response to a data call at the end of
             the third quarter of fiscal year 2003. Because the total cost of Property Plant &
             Equipment was not a recognizable component of the Mission’s accounting
             system, the Mission had to identify and accumulate that information manually.
             Additional disbursements totaling $1,206,358, for a security system upgrade and
             other modifications to make the building fit the needs of the Mission, had not
             been included in the building cost basis reported to USAID/Washington.

             The reason the additional expenditures had not been added to the cost basis was
             due to an oversight on the part of the Mission’s Office of Financial
             Management. Had the additional expenditures been included, the total cost
             basis the Mission should have reported to USAID/Washington for its new office
             building would have been $5,090,243, rather than $3,883,885. As a result, the
             total value of Property Plant & Equipment reported to USAID/Washington was
             understated by $1,206,358. Consequently, we are making the following
             recommendation.

                    Recommendation No. 1: We recommend that USAID/South
                    Africa determine the amount of all material cost elements
                    expended on its new office building and report the total
                    amount as Property Plant & Equipment in the next data call
                    to USAID/Washington.




Management   USAID/South Africa concurred with the recommendation and took immediate
Comments     action to correct the under-reporting. Specifically, the Mission determined the
             full cost basis for the new office building and included the revised figure in the
and Our
             September 30, 2003 data call to USAID/Washington. We therefore consider
Evaluation   Recommendation No. 1 to have received both a management decision and final
             action upon report issuance.

             Mission management also commented on three other recommendations
             contained in the original draft audit report. However, the Office of Inspector
             General’s Financial Audits Division requested the deletion of two of the draft
             findings and recommendations because they duplicated findings in USAID’s
             annual financial statement audit report. Another finding, with its associated
             recommendation, was deleted based on USAID/South Africa’s management
             comments.




                                                                                                  7
(This page intentionally left blank.)




                                        8
                                                                                      Appendix I



Scope and     Scope
Methodology
              RIG/Pretoria conducted this audit in accordance with generally accepted
              government auditing standards. Fieldwork was performed at USAID/South
              Africa in Pretoria, South Africa, from July 21 to August 29, 2003. The audit
              was focused on selected financial data of USAID/South Africa recorded during
              fiscal year 2003. Management controls related to the selected financial data for
              program expenditures and operating expenditures were assessed. These controls
              included approvals by responsible parties, comparison to third party documents,
              compliance with USAID policy as to timing and nature of expenditure, and
              correctness for entry into the financial reporting system.

              In testing USAID/South Africa’s accounting data, the sampled items were
              judgmentally or statistically selected.

              Methodology

              We developed the audit objective to determine whether USAID/South Africa
              established and implemented adequate internal controls over its financial
              accounting. We did not assess the overall reliability of the Mission Accounting
              and Control System (MACS).

              The OIG statistician statistically selected sample transaction items from the MACS
              Auxiliary Ledger for testing. The sample size was derived with a 90-percent
              confidence level for each population. The sampling plan was based on prior
              history and knowledge of the operation, risks, and costs involved. In assessing
              accuracy, we used a materiality threshold of plus or minus 5 percent relative to the
              population being audited. Other samples were judgmentally selected when the
              population did not lend itself to statistical sampling.

              The tests of details included verifying the accuracy of the data with source
              documentation and detailed accounting records maintained by the Mission. The
              audit procedures involved recalculation, physical observation, confirmation,
              interviews, examination of documents, vouching, tracing, and sampling. The
              criteria used included financial management-related chapters from the Automated
              Directives System.




                                                                                                     9
(This page intentionally left blank.)




                                        10
                                                                                                Appendix I



Management
Comments
                                                            UNITED STATES GOVERNMENT
                                                                      MEMORANDUM




             DATE        :      January 05, 2004

               TO        :      Jay Rollins: Regional Inspector General/Pretoria

             FROM        :      Eric Schaeffer: Controller, USAID/SA /s/

                                Audit of USAID/South Africa’s Financial Account Balances for the Third
             SUBJECT :          Quarter of Fiscal Year 2003 (Report No. 4-674-04-0xx-F)


               IN RESPONSE TO THE DRAFT REPORT’S RECOMMENDATIONS IN SUBJECT
               AUDIT REPORT, THE MISSION HAS REVIEWED THE AUDIT REPORT AND IS
               MAKING THE FOLLOWING COMMENTS:-

               1. RECOMMENDATION 1: We recommend that USAID/South Africa determine all
                    amounts expended on the USAID/South Africa new office building and report the
                    total amount in the data call for Property Plant & Equipment to
                    USAID/Washington.

                    Management Comment:

                    Management agrees with the recommendation and included the revised figure in the
                    September 30, 2003 data call to USAID/Washington.

               2.   Recommendation No. 2: We recommend that USAID/South Africa clear its backlog
                    of Standard Form 1221 reconciling items that are older than 90 days.

                    Management Comment:
                    Management acknowledges that the process of clearing reconciling items on a timely
                    basis needs improving, and has set a goal to bring the mission in compliance with the 90-
                    day rule by June 2004. One positive step taken to date is that coordination of this effort
                    has been assigned to the Controller’s Office data management specialist. Progress has
                    been made to date with respect to recent items, but further effort is required to clear
                    older reconciling items.

               3. Recommendation No. 3: We recommend that USAID/South Africa accrue the
                    entire amount for all open Operating Expense obligations in accordance with
                    applicable criteria.

                    Management Comment: Mission acknowledges this and will accrue Operating
                    Expense obligations accordingly, beginning with 1st quarter FY 2004.




                                                                                                                 11
4. Recommendation No. 4: We recommend that USAID/South Africa contact
   USAID/Washington to clarify the definition of the term “Unfunded Annual Leave”
   as it applies to Personal Service Contractors’ annual leave accruals and report to
   USAID/Washington any PSC annual leave accruals required for inclusion in
   USAID’s financial statements.

   Management Comment:
   Mission agrees to do so. On January 5, 2004, Mission sent an email to Alfred Buck –
   copy attached, requesting such clarification. Based on USAID/Washington’s response to
   clarification of “Unfunded Annual Leave”, Mission will report to USAID/Washington as
   required during the next term’s accruals report – March 31, 2004.




                                                                                   12
